Department of Health and Human Services

     OFFICE OF
INSPECTOR GENERAL




    STATE OMBUDSMAN DATA:
   NURSING HOME COMPLAINTS




                    INSPECTOR GENERAL



                       JULY 2003
                     OEI-09-02-00160
                    OFFICE OF INSPECTOR GENERAL


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.



Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                        EXECUTIVE                        SUMMARY

OBJECTIVE

         To describe nursing home complaints based on an analysis of the National Ombudsman
         Reporting System (NORS) data from 1996 through 2000.



BACKGROUND

         To protect the interests of nursing home residents, Congress established the State Long Term
         Care Ombudsman Program in the Older Americans Act Amendments of 1978. The
         ombudsman program is administered by the Administration on Aging (AoA) within the
         Department of Health and Human Services.

         Long term care ombudsmen attempt to resolve problems of individual nursing home residents
         and to bring about changes to improve nursing home care at the local, State, and national levels.
         They help nursing home residents and their families understand and exercise rights that are
         guaranteed by Federal and State laws.

         The Older Americans Act requires States to collect ombudsman complaint data and for the
         State ombudsman to report aggregate data to AoA. In fiscal year 1995, AoA implemented an
         ombudsman complaint reporting system called the National Ombudsman Reporting System
         (NORS). NORS data consist of 128 complaint categories divided into 5 major groups.
         NORS does not identify individual nursing homes.

         We gathered data and information for calendar years 1996 through 2000 from NORS
         statistical reports, the annual ombudsman narrative comments submitted with NORS data, and
         interviews with State and local ombudsmen from nine selected States.



FINDINGS

         We analyzed national NORS data from 1996 through 2000, as well as information regarding
         State-specific data obtained from 46 ombudsmen in 9 states. States are required to collect
         complaint data from ombudsmen and to report it to AoA. Nationally, the number of nursing
         home complaints increased, but the types of complaints have not changed significantly.
         However, the data are not comprehensive. NORS data should not be used to compare States
         with respect to the volume and types of complaints, because


Nursing Home Complaints: State Ombudsman Data    1                                OEI-09-02-00160
         local ombudsmen do not report all nursing home complaints in NORS, and they do not always
         use the same categories to classify complaints.

Nationally, from 1996 to 2000, the number of complaints increased, but the types
of complaints did not change significantly

         The total number of nursing home complaints grew from approximately 145,000 in 1996 to
         approximately 186,000 in 2000; however, the types of complaints have not changed
         significantly. The highest frequency of nursing home complaints involves resident care, and
         these complaints grew 37 percent from 1996 to 2000. The number of abuse cases peaked in
         1998 and has declined about 3 percent since then.

Among the sampled States, local ombudsmen do not report complaints uniformly

         Provisions in the Older Americans Act, as well as variations in State laws and policies, affect
         the number of abuse complaints that ombudsmen report. Local ombudsmen do not report all
         nursing home complaints into NORS. Furthermore, ombudsmen do not always use the same
         NORS categories to classify complaints, and they sometimes report a single complaint in
         several different categories.



RECOMMENDATION

         We believe the consistency of NORS data could be improved if AoA shares the results of this
         report with State ombudsmen and continues to clarify and refine the NORS process.



Agency Response

         AoA agreed that a lack of uniformity exists in the States’ reporting under NORS. AoA also
         agreed to distribute our final report to State ombudsmen and highlight the complaint trends. In
         addition, AoA plans to conduct regional and State training on the use of complaint codes.

         AoA indicated that the use of the word “report,” as applied to the Older Americans Act,
         caused confusion in our finding that “local ombudsmen do not report complaints uniformly.”
         Therefore, we have changed our finding to state that “an ombudsman may not be able to file a
         formal complaint,” rather than stating “an ombudsman may not be able to report a complaint.”
         The full text of AoA’s comments appears in Appendix B.




Nursing Home Complaints: State Ombudsman Data    2                                 OEI-09-02-00160
                            TABLE                        OF             CONTENTS


                                                                                                                                   PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Number and types of complaints . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Ombudsmen reporting of NORS data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          A: Ombudsman Complaints: 1996-2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





Nursing Home Complaints: State Ombudsman Data                    3                                            OEI-09-02-00160
                                    INTRODUCTION

OBJECTIVE

         To describe nursing home complaints based on an analysis of the National Ombudsman
         Reporting System (NORS) data from 1996 through 2000.



BACKGROUND

The Long Term Care Ombudsman Program

         To protect the interests of nursing home residents, Congress established the State Long Term
         Care Ombudsman Program in the Older Americans Act Amendments of 1978. The
         ombudsman program is administered by the Administration on Aging (AoA) within the
         Department of Health and Human Services.

         Long term care ombudsmen attempt to resolve problems of individual nursing home residents
         and to bring about changes to improve nursing home care at the local, State, and national levels.
         They help nursing home residents and their families understand and exercise rights that are
         guaranteed by Federal and State laws.

         The Older Americans Act requires States to collect ombudsman complaint data and for the
         State ombudsman to report the aggregate data to AoA. In fiscal year 1995, AoA implemented
         an ombudsman complaint reporting system called the National Ombudsman Reporting System
         (NORS). The States developed training and certification programs for ombudsmen, which
         included training on reporting NORS data. NORS data consist of 128 complaint categories
         divided into 5 major groups. NORS does not identify individual nursing homes.



METHODOLOGY

         We gathered data and information for calendar years 1996 through 2000 from NORS

         statistical reports, the annual ombudsman narrative comments submitted with NORS data, and

         interviews with State and local ombudsmen from nine selected States. We analyzed national

         and State-specific NORS data as well as information obtained from 

         46 ombudsmen in 9 States.





Nursing Home Complaints: State Ombudsman Data    4                                OEI-09-02-00160
         We used a sample of nine States for more in-depth data analysis. The sample States were
         California, Connecticut, Alabama, Maryland, Missouri, South Carolina, Texas, South Dakota,
         and New York. These States provide a cross section of ombudsman programs from large
         urban areas to small rural communities, as well as diverse geographic locations. They also
         account for approximately 30 percent of the nursing home beds within the United States.

         In each of the sampled States, we analyzed NORS statistical data, tracked the trends within the
         State, and compared State and national data during the 5-year period. We did not validate
         NORS data. We conducted telephone interviews with the State ombudsman and at least four
         local ombudsmen from urban and rural areas within each State. We asked the ombudsmen
         about complaint trends, major issues, and concerns they had identified in the complaint trends
         during the past 5 years. We compared these responses with the national data and the NORS
         annual report narratives for each sampled State.

         The inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Nursing Home Complaints: State Ombudsman Data    5                               OEI-09-02-00160
                                                FINDINGS

         We analyzed national NORS data from 1996 through 2000 as well as information regarding
         State-specific data obtained from 46 ombudsmen in 9 States. States are required to collect
         complaint data from ombudsmen and to report it to AoA. Nationally, the number of nursing
         home complaints increased, but the types of complaints have not changed significantly.
         However, the data are not comprehensive. NORS complaint data should not be used to
         compare States with respect to the volume and types of complaints, because local ombudsmen
         do not report all nursing home complaints in NORS, and they do not always use the same
         categories to classify complaints.



Nationally, from 1996 to 2000, the number of complaints
increased, but the types of complaints did not change
significantly

         NORS data include the number and nature of nursing home complaints, both nationally and
         within States. (See Appendix A for related graphs and tables.)

         Nationally, the total number of nursing home complaints grew from approximately 145,000 in
         1996 to approximately 186,000 in 2000 (Figure 1). During the same period, the number of
         complaints per 1,000 beds rose from 78.4 to 102.1 (Figure 2). This represented a 28 percent
         increase in the number of complaints and a 30 percent increase in the number of complaints per
         thousand beds.

         The types of complaints reported into NORS since 1996 have not changed significantly.
         Nationally, each of the top 12 complaint categories remained in the top 12 between 1996 and
         2000 (Figure 3). In 2000, these top 12 categories accounted for more than one-third of the
         total number of complaints. The distribution of complaints per 1,000 beds shows a similar
         consistency.

         The highest frequency of nursing home complaints involves resident care. By 1999, complaints
         concerning resident care (e.g., accidents, not responding to call lights, patient symptoms
         unattended) had surpassed those concerning resident rights (e.g., abuse, access to information,
         issues about transfer and discharge). From 1996 through 2000, resident care complaints grew
         37 percent compared to a 21 percent growth for complaints




Nursing Home Complaints: State Ombudsman Data     6                              OEI-09-02-00160
         involving resident rights (Figure 4). As of 2000, 6 of the top 10 specific complaint categories
         pertained to resident care:

                    1.        failure to respond to call lights or requests for assistance
                    2.        accidents and improper handling of residents
                    3.        lack of adequate care plans and resident assessments
                    4.        inadequate administration of medications
                    5.        unattended resident symptoms
                    6.        poor personal hygiene

         NORS data identify changes in the number of specific types of complaints. Nationally, one of
         the most prominent changes (for categories with at least 1,000 complaints in the year 2000) is
         that complaints concerning staff turnover increased by approximately 208 percent between
         1996 and 2000 (see Figure 5).

         Abuse cases reported to NORS peaked in 1998 and have declined about 3 percent since then.
         The total for all reported abuse cases rose from 13,469 in 1996 to 15,501 in 1998, and
         declined to 15,010 in 2000 (see Figure 6). During that period, among seven types of abuse
         categories, physical abuse was the most common type reported (see Figure 7).


Among the sampled States, local ombudsmen do not report
complaints uniformly

         Provisions in the Older Americans Act, as well as variations in State laws and policies affect
         the number of abuse complaints recorded into NORS. For example, under the Older
         Americans Act, an ombudsman may not be able to file a formal complaint without the consent
         of the resident or legal representative of the resident.1 As a result, ombudsmen may not enter
         abuse complaints in NORS data unless they actually open a case file and investigate it. Also,
         some States may have more abuse complaints reported into NORS because State law requires
         that all abuse complaints are reported to ombudsmen. Conversely, other States may have
         fewer abuse complaints reported into NORS, because their policy requires that all abuse
         complaints are reported to the licensing agency rather than to the ombudsmen. As a result,
         almost half (21 of 46) of the ombudsmen surveyed believe that complaints may be significantly
         under reported in NORS.

         Ombudsman do not always use the same NORS categories to classify complaints.
         Thirty-nine of the 46 surveyed ombudsmen told us that they do not consistently follow the
         NORS categories in reporting complaints. AoA provides definitions of complaint

         1
             42 U.S.C. §3058g(d)



Nursing Home Complaints: State Ombudsman Data          7                                     OEI-09-02-00160
         categories and instructions to ombudsmen for reporting NORS data. However, it is sometimes
         difficult for ombudsmen to categorize complaints when several definitions apply. Despite
         AoA’s instructions, ombudsmen sometimes report a single complaint in several different
         categories.2 One State ombudsman and four local ombudsmen from another State told us that
         if a single complaint applied to multiple NORS categories, they would report the complaint in
         each category rather than choosing one.

         NORS data exhibited some inconsistencies. For example, one State had difficulty reporting
         data in 2000 because of Y2K problems. In 1997, NORS data, which were posted on the
         AoA website, included two tables that contained conflicting numbers of reported complaints.

         According to one in three (15 of 46) ombudsmen interviewed, the number of ombudsmen, in
         relation to the number of nursing homes in a given state, may affect the number of complaints
         recorded in NORS. For example, a State with fewer ombudsmen has less resources to
         respond, investigate, and report nursing home complaints than a State which has more
         ombudsmen.




         2
             See www.aoa.dhhs.gov/notices/2002/complaint-codes.pdf to view the instructions for completing the State long term care
             ombudsman program reporting form.


Nursing Home Complaints: State Ombudsman Data                       8                                              OEI-09-02-00160
                                     RECOMMENDATION


         We believe the consistency of NORS data could be improved if AoA shares the results of this
         report with State ombudsmen and continues to clarify and refine the NORS process.



Agency Response

         AoA agreed that a lack of uniformity exists in the States’ reporting under the NORS. AoA also
         agreed to distribute our final report to State ombudsmen and highlight the complaint trends. In
         addition, AoA plans to conduct regional and State training on the use of complaint codes.

         AoA indicated that the use of the word “report,” as applied to the Older Americans Act,
         caused confusion in our finding that “local ombudsmen do not report complaints uniformly.”
         Therefore, we have changed our finding to state that “an ombudsman may not be able to file a
         formal complaint,” rather than stating “an ombudsman may not be able to report a complaint.”
         The full text of AoA’s comments appears in Appendix B.




Nursing Home Complaints: State Ombudsman Data   9                                OEI-09-02-00160
                                                                                APPENDIX A A


                                             Ombudsman Complaints: 1996-2000


Growth in Complaints

         Nationally, the total number of complaints grew from approximately 145,000 in 1996 to
         approximately 186,000 in 2000.

         Figure 1: Total Reported Complaints, 1996-2000

                                   190,000

                                   180,000
            Number of complaints




                                   170,000

                                   160,000

                                   150,000

                                   140,000

                                   130,000

                                   120,000
                                              1996   1997        1998   1999    2000
                                                                 Year




         During the same period, the number of complaints per 1,000 beds rose from 78.4 to
         102.1.

         Figure 2: Complaints per 1,000 Nursing Home Beds, 1996-2000





Nursing Home Complaints: State Ombudsman Data               10                  OEI-09-02-00160
The Most Common Types of NORS Complaints

         Nationally, each of the top 12 complaint categories has remained in the top 12 between 1996

         and 2000.




        Figure 3: Top Ombudsman Complaint Categories, 1996-2000


                                                                                             Percent
           Cod                                         1996    1996   2000      2000
                            Top Complaints                                                   Growth
            e                                          Total   Rank   Total     Rank
                                                                                            1996-2000

            F40                  Accidents             6,661    1     7,675       2           15.2%

            F41         Request for Assistance         5,441    2     8,676       1           59.5%

            F45             Personal Hygiene           5,301    3     7,279       5           37.3%

                         Dignity, Respect-Staff
            D26                                        4,882    4     7,351       4           50.1%
                                Attitudes

            F42                 Care Plan              4,453    5     7,550       3           69.5%

            M97               Staff Shortage           4,332    6     6,625       6           53.0%

             A1              Physical Abuse            4,321    7     4,350       11               0.7%

            J71               Menu Quality             4,295    8     5,540       8           29.0%

            C19            Discharge, Eviction         4,110    9     5,762       7           40.2%

            E38            Personal Property           3,598    10    4,227       12          17.5%

            F44           Meds Administration          3,123    11    4,914       9           57.3%

            F48         Symptoms Unattended            3,198    12    4,617       10          44.4%




Nursing Home Complaints: State Ombudsman Data     11                             OEI-09-02-00160
Resident Care Complaints

         The highest frequency of nursing home complaints involve resident care. By 1999, complaints
         concerning resident care (e.g., accidents, not responding to call lights, patient symptoms
         unattended) surpassed those concerning resident rights (e.g., abuse, access to information,
         issues about transfer and discharge).




         Figure 4: Ombudsman Complaints by Major Category, 1996-2000


                                  60,000
           Number of complaints




                                                                                                                 1996
                                  50,000                                                                         1997
                                                                                                                 1998
                                  40,000                                                                         1999
                                  30,000                                                                         2000

                                  20,000

                                  10,000
                                           Residents' Rights Resident Care    Quality of Life   Administration   Not Against
                                                                                                                   Facility
                                                                        Types of complaints




Nursing Home Complaints: State Ombudsman Data                                12                                   OEI-09-02-00160
Specific Types of NORS Complaints

       Between 1996 and 2000, of the categories with at least 1,000 complaints in 2000, 

       complaints concerning staff turnover have the highest national growth, with an increase     of

approximately 208 percent.



         Figure 5: Complaint Categories with the Largest Growth, 1996-2000


                                                                                  Percent
                                                          1996       2000
             Code                    Complaint                                    Growth
                                                          Total      Total
                                                                                 1996-2000

              M99        Staff Turn-Over                     330      1,015        207.6%

              J70        Dehydration                       1,122      2,219         97.8%

              K81        Infection Control                   562      1,074         91.1%

             M101        Supervision                       1,825      3,326         82.2%

                         Exercise Choice and/or
              D27                                          2,211      3,803         72.0%
                         Civil Rights

              K78        Cleanliness, Pests                2,242      3,832         70.9%

              F42        Care Plan/Assessment              4,453      7,550         69.5%

              F41        Call Lights, Requests for         5,441      8,676         59.5%

              F44        Medications - Administration      3,123      4,914         57.3%

                         Staff Unresponsive,
             M100                                          2,376      3,700         55.7%
                         Unavailable




Nursing Home Complaints: State Ombudsman Data        13                          OEI-09-02-00160
Reported NORS Abuse Cases

         The total for all reported abuse cases rose from 13,469 in 1996 to 15,501 in 1998, then
         declined to 15,010 in 2000.

      Figure 6: Reported Abuse Complaints, 1996-2000

                                  16,000

                                                                                                      15,501
                                  15,500
          Number of complaints




                                                                                                                                                        15,010
                                  15,000                                                                                        14,871


                                  14,500

                                                                              14,025
                                  14,000

                                                     13,469
                                  13,500


                                  13,000
                                                     1996                      1997                    1998                     1999                    2000
                                                                                                      Year




         During that period, among seven types of abuse categories, physical abuse was the most
         common type reported.

       Figure 7: Types of Abuse Complaints, 1996-2000

                                  6,000


                                  5,000
           Number of complaints




                                                                                                                             1996
                                                                                                                             1997
                                  4,000
                                                                                                                             1998
                                                                                                                             1999
                                  3,000
                                                                                                                             2000

                                  2,000


                                  1,000


                                     0
                                          Physical abuse     Resident to Verbal/ mental Gross neglect Other Abuse        Financial       Sexual abuse
                                                           resident abuse    abuse                    or Exploitation   exploitation
                                                                                       Abuse types




Nursing Home Complaints: State Ombudsman Data                                            14                                                  OEI-09-02-00160
                                                                   APPENDIX B A


                                                Agency Comments





Nursing Home Complaints: State Ombudsman Data   15                 OEI-09-02-00160
Nursing Home Complaints: State Ombudsman Data   16   OEI-09-02-00160
Nursing Home Complaints: State Ombudsman Data   17   OEI-09-02-00160
                                   ACKNOWLEDGMENTS

         This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General
         for Evaluation and Inspections, and Deborah W. Harvey, Assistant Regional Inspector General
         for Evaluation and Inspections, in San Francisco. Other principal Office of Evaluation and
         Inspections staff who contributed include:

         Timothy Brady, Project Leader                       Sandy Khoury, Program Specialist

         Michael Henry, Program Analyst

         Thomas A. Purvis, Program Analyst





                             For information or copies of this report, please contact

                                       the Office of Inspector General's

                                    Public Affairs office at (202) 619-1343.


              Reports are also available on the World Wide Web at our home page address:

                                         http://www.oig.hhs.gov/


Nursing Home Complaints: State Ombudsman Data        18                                  OEI-09-02-00160
